No. 19-465

 

IN THE
Supreme Court of the United States

PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,

Petitioners,
Vv.

STATE OF WASHINGTON,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Washington

REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,950 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 22, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
